<html>
<title> - U.S. SECURITY CONCERNS IN ASIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
                     U.S. SECURITY CONCERNS IN ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        WEDNESDAY, MARCH 8, 2000

                               __________

                           Serial No. 106-112

                               __________

    Printed for the use of the Committee on International Relations




 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-748 CC                   WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate





                            C O N T E N T S

                              ----------                              

                               WITNESSES
                                                                   Page

Admiral Dennis C. Blair, U.S. Navy, Commander in Chief, U.S. 
  Pacific Command................................................     3
Mr. Rust M. Deming, Acting Assistant Secretary of State for East 
  Asian and Pacific Affairs, U.S. Department of State............     5
The Honorable Franklin Kramer, Assistant Secretary of Defense for 
  International Security Affairs, U.S. Department of Defense.....     8

                                APPENDIX

The Honorable Doug Bereuter, a Representative in Congress from 
  Nebraska.......................................................    32
Admiral Dennis C. Blair..........................................    35
Mr. Rust M. Deming...............................................    64
The Honorable Franklin Kramer....................................    68
The Honorable John Cooksey, a Representative in Congress from 
  Louisiana......................................................    74
Answer provided by the State Department to question on page 9 
  from Hon. Doug Bereuter........................................    75




                     U.S. SECURITY CONCERNS IN ASIA

                              ----------                              


                        Wednesday, March 8, 2000

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 12:30 p.m., in 
Room 2318, Rayburn House Office Building, Doug Bereuter 
(Chairman of the Subcommittee) presiding.
    Mr. Bereuter.  The Subcommittee will come to order.
    The Subcommittee on Asia and the Pacific meets today to 
examine U.S. security interests in Asia. The Chair would first 
like to express his gratitude to Chairman Sensenbrenner and the 
Science Committee for graciously permitting us to use their 
meeting room. We hope that the reconstruction on the 
International Relations Full Committee hearing room will be 
completed in the next few weeks. Perhaps this is the last time 
we will have to impose on another Committee for a suitable 
meeting room.
    Congressman Lantos, the Ranking Member, is on a plane on 
the way back from California. He has certainly expressed his 
willingness to have us proceed on time. I think in order that 
we complete our hearing in a reasonable time, before we are 
interrupted by votes, it is a good time to start.
    Soon after I assumed the Chairmanship of this Subcommittee, 
I tried to establish a set of guidelines which I sought to 
apply to this Subcommittee's oversight. In establishing these 
guidelines, my goal was for them to reflect America's vital and 
growing interest in Asia and to provide greater assurance for 
the continuity of American engagement within the region.
    The first immutable principle that I identified was the 
advancement of U.S. security interests in the region; thereby 
ensuring that the U.S. remains engaged, committed to peace, and 
dedicated to strengthening our alliance and friendships in the 
region. Historically and geographically, the United States has 
strong links with Asia.
    As a result, we have a fundamental interest in the peace 
and security of the region. Moreover, the nations of Asia have 
reciprocated by demonstrating a fundamental interest in keeping 
the U.S. militarily deployed in the region. It is readily 
apparent that every nation in Asia, with the possible exception 
of North Korea, wants to see American military forces in the 
region for the sake of stability.
    We have our differences, but, overall, they are very 
pleased to have us there. It is also important to reassure our 
Asian friends of our long-term commitment. I want to emphasize 
that I am a strong advocate of enhanced military-to-military 
relations, high level visits such as the visit to Asia that 
Secretary Cohen is just now embarking upon, port calls, and 
appropriate military education and training programs can all 
serve a very positive function.
    Such contacts can go a long way toward alleviating 
unnecessary misunderstandings. Peaceful military exchanges may 
not always turn adversaries into friends, but they certainly 
are an antidote to fears that are based solely on ignorance. 
The training and education programs of the United States are 
aimed at enhancing the professionalism and respect for civilian 
authority among the armed forces of our friends and allies.
    Admittedly, there are sometimes individuals selected whose 
participation in U.S. training does not bring the desired 
result. It is absolutely clear to me that the overwhelming 
majority of those who receive military education and training 
in the United States return to their homelands as better, more 
responsible military leaders, better steeped in the traditions 
of democracy and respect for human rights.
    Today, the United States has a forward-based military 
presence in Asia because very real threats to the stability and 
the security of the region still exist. Some of the major 
considerations include the following. First, the recent 
escalation of threatening rhetoric by the People's Republic of 
China toward Taiwan, backed by the increased deployment of 
missiles with what seems to be an overt attempt to again affect 
the outcome of the upcoming presidential election.
    In recent days, the PRC has issued a White Paper that holds 
out the prospect of military action should Taiwan intentionally 
fail to negotiate in good faith in the cross-strait dialogue. 
In addition, it is now clear that China has acquired some of 
the most sensitive information regarding U.S. nuclear and 
missile technology, and it is probable that it intends to use 
that knowledge to significantly enhance their nuclear strike 
capability.
    Even more immediately alarming is the threat posed by North 
Korea's rapid moves toward the development of long-range 
ballistic missiles. Of course, there is also understandable 
skepticism regarding whether the North Koreans have really 
stopped their nuclear programs. There are also competing claims 
of sovereignty over the scattered territories of the South and 
East China Sea, including the Spratly Islands issue which 
directly involves China, Vietnam, Brunei, Malaysia, the 
Philippines, and Taiwan, as well as the Senkaku Islands issue, 
which involves China, Japan, and Taiwan.
    I would be remiss if I neglected to mention the seemingly 
ever-present tension between India and Pakistan (both nuclear-
capable nations), and the recent instability in Indonesia, both 
economically and politically.
    In short, the menu of priorities is large for those who 
place themselves in harm's way. Today, this Subcommittee is 
honored to have a very important panel of witnesses from the 
military and civilian sides of the Executive Branch to share 
with us their views on these and other important issues.
    Our first panelist is Admiral Dennis Blair, Commander in 
Chief, U.S. Pacific Command. Answering to the President and the 
Secretary of Defense through the Chairman of the Joint Chiefs 
of Staff for the collective defense arrangements in the 
Pacific, he is commander of approximately 100,000 sailors, 
soldiers, airmen, and marines deployed in the region.
    Admiral Blair is the Chief U.S. military representative 
from Hawaii to the Indian Ocean, an area of over 100 million 
square miles. This will be Admiral Blair's initial testimony 
before this Subcommittee, having replaced Admiral Peruher in 
1999. Admiral Blair has only recently returned from an official 
visit to China, the first high-level military visit since our 
mistaken bombing of the Chinese embassy in Belgrade.
    The Admiral is joined by Mr. Rust Deming, Acting Assistant 
Secretary for East Asian and Pacific Affairs. A career Foreign 
Service Officer, Mr. Deming has served in numerous positions 
throughout East Asia. This is likely to be his only opportunity 
to testify before the Subcommittee in the immediate future, as 
his name has recently been put forward to be Ambassador to 
Tunisia. Congratulations, Mr. Deming.
    Completing our panel today will be Franklin D. Kramer, 
Assistant Secretary of Defense for International Security 
Affairs. Prior to assuming this position in 1996, Mr. Kramer 
served briefly as Deputy Assistant Secretary of Defense for 
European and NATO Affairs. In the private sector, Mr. Kramer 
has been a partner in the law firm of Shea & Gardner and 
President of the World Affairs Council of Washington, D.C.
    Admiral Blair, we will call upon you first. I have had a 
chance to go over your testimony in some detail. I am not going 
to set any limits on the time that you have to present your 
testimony. Your entire statement will be made a part of the 
record. You may proceed as you wish after I ask Mr. Manzullo if 
he has any comments that he would like to make.
    [The statement of Mr. Bereuter appears in the appendix.]
    Mr. Manzullo.  No comments, Mr. Chairman.
    Mr. Bereuter.  Very well, Admiral, you may proceed.

 STATEMENT OF ADMIRAL DENNIS C. BLAIR, U.S. NAVY, COMMANDER IN 
                  CHIEF, U.S. PACIFIC COMMAND

    Adm. Blair.  Thank you, Mr. Chairman.
    If I could just make a couple of points from my written 
testimony. I do appreciate the opportunity to appear before 
this Committee. I appreciate your interest in the military 
component of our security strategy in the Asia-Pacific region. 
As CINC, my bedrock responsibility is operating trained and 
ready forces in support of our interests in the region.
    I have told your colleagues on the Armed Services Committee 
that there are needs in the Pacific Command; needs that could 
not all be met within current budgets. I am particularly 
concerned about operating and maintenance funding for spare 
parts, exercises, and for the maintenance of our camps, posts, 
and stations, and the quality of life of our people. On 
balance, I have the necessary forces and they are ready to do 
the job.
    What is that job in the Pacific? First, there is deterrence 
of direct threats to U.S. interests in the region. Our forces 
in Korea, with reinforcements both from within the Pacific 
Command and from other supporting CINC's, fighting with allies, 
are capable of throwing back a North Korean attack and then 
destroying the North Korean regime that launched it.
    Our forces today can carry out our relationships under the 
Taiwan Relations Act, which are to resist any resort to force 
or other forms of coercion that would jeopardize the security, 
social, or economic systems of the people of Taiwan. Deterrence 
of immediate threats is really just the beginning of trying to 
form a better Asia-Pacific region.
    We are working pro-actively to create a security framework 
there which will favor American interests over the long-term. 
We are working with traditional allies, like Japan, under the 
defense guidelines to expand our cooperation from the defense 
of Japan to dealing with threats in the region and encouraging 
greater Japanese participation in wider issues within the 
region.
    We are also encouraging them to continue their support to 
our mutual interests under the Special Measures Agreement, 
which provides resources for the forces that we have stationed 
in Japan. As you mentioned, we are reestablishing our military 
dialogue with China. During my recent visit, I discussed areas 
of difference with the People's Republic of China, areas of 
potential cooperation, and the best way to move forward to 
reach peaceful resolution of the issues. Our vision is the 
creation of security communities in the region; communities 
that have dependable expectations of peaceful change. The 
emphasis on cooperative behavior rather than formal agreements 
makes this approach particularly suited to the Asia-Pacific 
region. For example, on the military side, we are knitting 
together many of our bilateral exercises into regional 
exercises.
    We are directing them toward realistic scenarios of common 
challenges in the region, such as non-combatant evacuation, 
peacekeeping. Our participation in East Timor, I believe we are 
creating a new model for U.S. participation in international 
relations. Australia lead the coalition and we supported it 
with contributions that the United States is uniquely capable 
of making; airlift communications, mobility, intelligence, and 
planning skills.
    I would like to mention one area in which I believe we 
could do better, and you addressed it much more eloquently than 
I in your opening statement. During this past year, our 
military relations with various countries in the region--
Indonesia, India, Russia, and China--have been expanded and 
curtailed as actions have taken place that are in the U.S. 
interest or against international norms of behavior, and that 
is correct. There are two areas in which I think we should 
continue to interact with these countries.
    The first is education of their officers in our institutes 
of higher military education. The second is participation in 
international military conferences in which many countries 
participate in the Asia-Pacific region, some of which we 
sponsor in the Pacific Command; others in which we participate.
    These interactions, education, and international 
conferences are very much in the interest of the United States. 
They expose officers of other countries to our norms of 
behavior. They can help bring reform and improvements within 
their armed forces.
    So, in summary, Mr. Chairman, I bring you a very positive 
report on the military component of U.S. security strategy in 
the Asia-Pacific region. We have the tools and are able to do 
our job. As this Committee knows, and as you personally know 
better than others, the Asia-Pacific region is a dynamic and 
vital part of the world. What happens there is very important 
to the interests of the United States.
    Thank you.
    [The statement of Admiral Blair appears in the appendix.]
    Mr. Bereuter.  Thank you, Admiral Blair.
    I know there will be a number of questions from this Member 
and others. I would like now, however, to turn to Mr. Rust 
Deming, Acting Assistant Secretary for East Asian and Pacific 
Affairs for comments he wishes to make. Mr. Deming.

  MR. RUST M. DEMING, ACTING ASSISTANT SECRETARY OF STATE FOR 
    EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Deming.  Thank you very much, Mr. Chairman.
    Thank you for your kind remarks in my introduction. 
Assistant Secretary Roth, who has appeared before this 
Committee many times, is traveling in the region. I am honored 
to be able to appear here with Admiral Blair and Mr. Kramer to 
talk about our U.S. security interests in Asia and in the 
Pacific. My military colleagues are focusing on the military 
aspects of security.
    What I would like to do, with your permission, is to focus 
my remarks today on how our military efforts support our 
broader interests in the region. Ever since World War II, the 
American forward-deployed military presence in our bilateral 
alliance structure has been the foundation of security across 
the Asia-Pacific region.
    Through the long years of the Cold War, the United States, 
working with its allies, contained the Soviet threat and 
provided the bulwark behind which many nations were able to 
build the foundations for prosperity and stability. Together 
with our allies and partners in the region, we created and 
maintained the environment in which Asian economies prospered 
and democracy has grown steadily.
    The solidarity of our alliances and our military presence 
in East Asia made an important contribution to the successful 
end to the Cold War by containing the threat of Soviet 
expansionism in the Far East. The end of the Cold War 
represented the end of an era, but not the end of the need for 
our key alliances or robust American military presence in the 
region.
    Our interest in maintaining a secure environment to allow 
economies to develop, trade to grow, and democracy to spread 
has only increased. The American naval, air, and ground forces 
deployed in the Western Pacific, working with our alliance 
partners, continue to play the critical role in maintaining a 
stable environment.
    On the Korean Peninsula, we face one of the last residual 
challenges of the Cold War. As outlined by Secretary Perry in 
his review last year, we are addressing this challenge with a 
two-pronged strategy. First, we maintain a strong deterrence on 
the peninsula through our alliances with the ROK and Japan, and 
our forces stationed in South Korea, Japan, and elsewhere in 
the region.
    Second, we stand ready to improve relations with the DPRK 
as it deals with issues of concern to the United States and our 
allies, particularly in the missile and nuclear areas. This 
comprehensive approach has the strong support of the ROK and 
Japan, which fully share our view that diplomacy can only 
succeed if it is backed with credible deterrence and resolve.
    In Japan, our bilateral security relationship is as strong 
as it has ever been and our bases there remain fundamental to 
our strategic presence in East Asia. We have worked hard with 
the Japanese government over the last few years to strengthen 
our alliance.
    In 1996, President Clinton and then-Prime Minister 
Hashimoto issued the U.S.-Japan Security Declaration, which set 
forth the post-Cold War rationale for the alliance and called 
for revision of the U.S.-Japan guidelines for defense 
cooperation to enable us to cooperate more effectively in 
response to a regional crisis.
    To further strengthen our alliance with Japan, we are 
working with the GOJ to consolidate our base structure in 
Okinawa prefecture where almost half of U.S. Forces are 
stationed. We are also expanding our research program with 
Japan on Theater Missile Defense.
    In Southeast Asia, we have worked in coordination with our 
treaty allies, the Philippines, Thailand, and Australia, and 
with a number of other partners to strengthen regional 
stability. Our successful efforts in support of the transition 
in East Timor mark an important turning point.
    The government of Australia, together with others in the 
region, provided the leadership and the bulk of forces to 
respond to this threat to stability in the region. The United 
States supported this effort by providing several key 
capabilities for the multi-national force that entered East 
Timor in October to restore security. These included 
communications, logistics, and intelligence.
    As part of our overall policy to engage China, we are 
seeking to develop a relationship with China's military, a 
subject that Admiral Blair has already addressed and Assistant 
Secretary Kramer will address in more detail. Let me just say 
that our efforts to engage the Chinese military do not occur in 
a vacuum.
    They occur within our commitment to ``one China,'' 
dialogue, and to the peaceful resolution of differences, what 
we call the ``three pillars'' of our position, and within our 
commitment to faithful implementation of the Taiwan Relations 
Act. They are also very much affected by the overall atmosphere 
of the relationship.
    In that context, let me comment briefly on the White Paper 
on cross-strait relations issued by the PRC last week. The 
White Paper states, in part, that Beijing would have reason to 
use force against the island if Taiwan refused cross-strait 
negotiations on reunification indefinitely. That new 
formulation is unwelcome, and we have expressed our deep 
concern to China at high levels, both in Washington and in 
Beijing.
    We have made it very clear that we are committed to seeing 
the Taiwan issue resolved peacefully through cross-strait 
dialogue. As you mentioned, Mr. Chairman, it is important to 
emphasize that there is broad support in East Asia for a 
substantial U.S. military role in the region. Japan and the ROK 
both demonstrate, through their host-nation support, the 
importance they attach to their alliances with the U.S. and to 
our forward-deployed presence.
    A growing number of other countries in the region have also 
welcomed the opportunity to plan, train, and exercise with the 
U.S. forces. Our military relationship with Indonesia remains 
difficult. Military-to-military relations have been restricted 
for years because of U.S. concerns about human rights abuses in 
Indonesia and in East Timor, and over the issue of 
accountability for past atrocities under the regime of former 
President Soeharto.
    Because elements of the Indonesian military had backed 
militia violence and devastation in East Timor, and as a means 
to secure Indonesia's acceptance of international peacekeeping 
operations, President Clinton suspended, in September 1999, our 
remaining military-to-military relations with Indonesia. We 
also have legislative restrictions under the Leahy Amendment, 
which affect our ability to resume foreign military sales and 
IMET or EIMET. However, recently President Wahid has undertaken 
a bold program to assert civilian control of TNI and to promote 
military reform. We want to be supportive of this effort within 
the political and legislative constraints on renewing our 
military-to-military ties with Indonesia.
    The Administration will continue to consult closely with 
Congress on step-by-step resumption of defense relations with 
Indonesia. We also strongly support the development of a series 
of regional organizations, including APEC and the Association 
of Southeast Asian Nations, ASEAN, which have brought countries 
and economies together to improve economic cooperation and 
reduce frictions.
    In the security area, ASEAN has established, together with 
the United States and the other dialogue partners, the ASEAN 
Regional Forum to discuss regional security and explore ways to 
reduce tensions, build confidence, and move toward preventive 
diplomacy.
    The region continues to look more closely at various 
multilateral fora, and the U.S. is taking a very active role in 
this. These organizations support U.S. interests in fostering 
prosperity and stability, but they are not intended to be, and 
cannot be, mutual security organizations such as exist in 
Europe. They are not substitutes for our bilateral alliances or 
for the U.S. military presence.
    As we look ahead, we may need to adjust our position in our 
military deployments in the region based on changes in the 
security environment. However, under any foreseeable scenario, 
it will be in our interest, and in the interest of our allies, 
and the region as a whole to maintain a formidable American 
forward-deployed presence in East Asia.
    Thank you, Mr. Chairman.
    [The statement of Mr. Deming appears in the appendix.]
    Mr. Bereuter.  Thank you very much.
    We will now hear from the Honorable Franklin D. Kramer, 
Assistant Secretary for International Security Affairs with the 
U.S. Department of Defense. Mr. Kramer, you may proceed as you 
wish.

    MR. FRANKLIN KRAMER, ASSISTANT SECRETARY OF DEFENSE FOR 
   INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

    Mr. Kramer.  Thank you, Mr. Chairman.
    I fully agree with what Admiral Blair and Mr. Deming have 
said. So, let me just make a few points. The importance of this 
region perhaps is exemplified, as you have said, by the fact 
that the Secretary of Defense is leaving tonight for a trip to 
Hong Kong, Vietnam, Japan, and Korea. Just about 3 weeks ago, I 
came back from my own trip to the Philippines, Singapore, 
Thailand, and Australia. Admiral Blair, of course, has just 
recently been in China. In other words, we have an active and 
continuous involvement.
    We have a policy that is built on four factors. One is our 
alliances: Japan, Korea, Australia, Thailand, and the 
Philippines. Close bilateral relationships like Singapore. The 
forward commitment that Mr. Deming mentioned of the 100,000 
forces and you mentioned yourself. We have a strategy of long-
term engagement. We have been working at that for the past 
several years.
    The defense guidelines with Japan allow for that to be 
developed. In Korea, the President of Korea has said that he 
welcomes continued U.S. presence, even after peaceful 
resolution of the situation the peninsula. In Singapore, they 
have built a pier for one of our carriers. That will be opened 
in December. In the Philippines, we have signed the Visiting 
Forces Agreement. Admiral Blair's forces have been operating 
there, exercising there, and actually performing humanitarian 
assistance in the Philippines.
    We have a continued outstanding relationship with the Thais 
on all military issues and on some of the newer problems we 
have, such as counter-narcotics. We are also building up on 
multi-lateral dialogues. So, we have a tri-lateral dialogue 
among ourselves, Japan, and Korea. It is a Track One political 
dialogue.
    Additionally, the Defense Department has had a tri-lateral 
dialogue. I have led meetings for the past 2 years at my level 
with counterparts in the tri-lateral relationship. We have 
challenges. You have mentioned some. One, of course, is China. 
We have restarted. As I think Mr. Chairman, we had talks in 
January, the so-called Defense Consultative Talks with the 
Chinese military.
    We have begun a defense-to-defense relationship 
fundamentally because we know that the PLA is a very important 
actor in Chinese national security decisions because we want 
them to have the opportunity to hear from us, because we want 
to have the ability to influence them, and because we want them 
to be able to see our capabilities to avoid miscalculation and 
provide transparency. The Taiwan issue, of course, is a very 
important one, both long-term and immediately.
    I agree exactly with what Mr. Deming said and the Secretary 
said the other day. We support the ``One-China'' policy. We 
support and adhere to the Taiwan Relations Act. We look for 
resolution of this problem by peaceful means and not by threats 
of the use of force or of the use of force.
    We take our relationships under the TRA very seriously, as 
Admiral Blair said, to ensure that the Taiwanese have a 
sufficient self-defense capability. Last year, for example, we 
notified E-2 aircraft, Knox frigates, Stinger missiles, Harpoon 
missiles, torpedoes, helicopters, and the like. So, it is a 
serious effort in order to ensure that, that sufficient self-
defense capability is maintained.
    We also work on what we call software initiatives with 
Taiwan, training C4I, logistics in order to make sure that not 
only do they have the hardware, but they have the proper 
capability to use them. While Taiwan is, of course, in the 
news, we should not forget that North Korea has been and 
remains a very serious problem. They have a missile program. We 
have been successful in having them agree to a flight test 
moratorium.
    It, nonetheless, is a fundamental issue for us. It 
underlies the efforts, as you are well-aware, Mr. Chairman, 
with respect to our own national missile defense effort here in 
the United States. They also have a formidable conventional 
capability, particularly artillery, as well as a chemical 
capability. So, North Korea is an area that we have to look at 
very carefully, as Admiral Blair said.
    We want to work in other areas. We see some real 
possibilities in Indonesia. They are undergoing a democratic 
transition. I do not think anyone 2 years ago would have 
expected this kind of change. We have seen lots of positive 
things and obviously some difficult problems, some of which 
were exemplified by what happened in Timor this last summer.
    We think that there are possibilities for real development 
here, for real engagement to work, on the one hand with the 
Indonesians as they want to, and on the other hand with the 
Congress because we do have not only statutory limitations, but 
we ought to make this a combined effort. We have had some 
recent support from the Congress that we are very appreciative 
of.
    We have a new Asia-Pacific Regional Initiative which is 
funded by the conference. It allows us to do the multilateral 
exercising that Admiral Blair mentioned. We are looking at 
developing a area wide network to allow countries to get 
information from us, and we have other programs, defense 
resources, and the like. We think that there are lots of 
possibilities to ensure that our long-term involvement in the 
region is a positive factor for security and stability that 
will allow political and economic development to continue to go 
forward.
    Thank you, Mr. Chairman.
    [The statement of Mr. Kramer appears in the appendix.]
    Mr. Bereuter.  Thank you, Secretary Kramer.
    I have many questions for you. We will try to move back and 
forth among those of us that are here. First of all, perhaps 
the question will be directly primarily to you, Mr. Deming, but 
any of the three of you may contribute of course.
    I think it was you that mentioned the Leahy Amendment. Is 
the Administration supportive of letting it expire at the end 
of this fiscal year?
    Mr. Deming.  I am not sure we have taken a position on 
that. If I may, I would like to consult with my boss, Stanley 
Roth, and others, but I will get you an answer on that.
    Mr. Bereuter.  I would appreciate on that. I personally 
would like to see it expire. I would like to know if in fact I 
have the support of the Administration on it so that I might 
try to weigh in on that issue.
    [The information referred to appears in the appendix.]
    Mr. Bereuter.  Mr. Kramer, you focused a little bit of your 
remarks on Korea. Anyone who has been in the area north of 
Seoul understands why we have so many land mines and other 
kinds of protective deployment factors and infrastructure in 
that area. It is the one area of the world where we have made 
the case why we need to have at least anti-vehicular mines for 
a foreseeable period of time. It seems to me it was for 7 years 
or it was through 2007.
    Do you think the United States has adequately made its 
rationale for its view on the importance of those land mines 
known in the international community, in light of what the 
Canadians initiated in the way of a land mine moratorium?
    Mr. Kramer.  As you have said, Mr. Chairman, we have a very 
particularized need on the Korean peninsula. That was a factor, 
both for the Secretary of Defense and for the President, in 
deciding our position. I think that our position was very well-
known. It was, regrettably, not accepted by many countries, 
including some who are our best allies, not only the Canadians, 
but the U.K. and others.
    On the other hand, for those who, so to speak, live in 
tough areas, Korea for example, they understand and support our 
position. I think it is important for us to continue to adhere 
to that position. It is possible through technological advances 
that we may find some alternatives. The Department of Defense 
is working hard on seeing whether there are alternatives. We do 
not yet have them. Unless and until we get those, in order to 
ensure that we can do what we need to do militarily, I think we 
have to stick with our position. The Admiral may have some 
additional comments on it.
    Adm. Blair.  I think that is just right, Mr. Chairman. 
Because of the position of the South Korean capital so close to 
the DMZ, a very strong, early defense is necessary in that part 
of the country. The capability that current stocks of land 
mines have is important. Only if we develop something that will 
do the things that land mines do can we support removing them.
    Mr. Bereuter.  Admiral Blair and Secretary Kramer, as 
mentioned, we have approximately 100,000 uniformed personnel in 
the Asia-Pacific region. In fact, the House has passed a 
resolution that Chairman Spence and I initiated which endorsed 
that level of commitment at this point and encouraged the 
Administration in what it has as a policy. In light of the 
budget that we have available to the Department of Defense, do 
you think that level of commitment to the region is 
sustainable?
    Adm. Blair.  From my point of view, I think to do the job I 
have to do, both in terms of deterrence and a response to 
crisis and engagement, the combat capability that I have is 
necessary to do that job. I do not see big reductions as 
allowing me to do that job. So, I would prefer not to count 
individual people because some of that mix changes based on the 
weapons systems you have and the way the technology is helping 
you. The capability represented by that, what is now about 
100,000 people, is what I need to do the job that I have. So, I 
think we need to find the resources to continue it.
    Mr. Kramer.  If I can add to that. We, as I know you know 
Mr. Chairman, put out about a year and a half ago our East Asia 
Strategy Review. It has the very same point that you have, 
which is to say that we think it is necessary as a policy 
matter to maintain the approximately 100,000 people. One of the 
things that we are trying to do, and that is a part of Admiral 
Blair's job as you said, is to shape the environment to ensure 
that the need for deterrence, the need for the actual use of 
force does not arise.
    Having the forces out there is a very important factor in 
shaping that environment. It is possible that, as a technical 
matter, you could win the wars if you were back, but you will 
not have them if you are forward, or at least we hope that. So, 
I think keeping the forces out there is a very important factor 
to maintaining the stability of the region. That stability is 
the basis on which the prosperity of, let us say, the last 20 
years has been built.
    Mr. Bereuter.  About 10 days ago I visited the U.S.S. 
Bataan in a very different part of the world as the Bataan was, 
along with ships, preparing to bring back to the United States, 
after a 6-month deployment in the Mediterranean, a Marine 
expeditionary unit, and a battalion--plus with all of its 
equipment. I was very impressed, of course, with the 
capabilities and with the men and women in that Marine 
expeditionary unit, with the Navy personnel, and with the 
Marines.
    When we asked questions of the sailors--especially of the 
Marine and Navy airmen--about capabilities, we got all of the 
expected right answers. But when we visited with them 
individually, we found they had a very different story to tell 
us on re-supply of parts and what they needed to do their 
operation. Now, it is my assumption that this unit gets the 
best available when it deploys or its replacement deploys.
    If they in fact have that shortage and if you have the 
shortages that we saw with the F-16 units in Aviano which are 
related to the Balkans region, I am wondering about whether or 
not we really have enough resources coming to the military to 
do the job. As I pose that question, I will ask you, Admiral 
Blair, am I correct in understanding that we have such a Marine 
expeditionary unit deployed routinely in the Pacific region as 
well on a similar kind of convoy of three ships?
    Adm. Blair.  That is correct. We have one amphibious-ready 
group with an associated Marine Expeditionary Unit that is 
forward-based in the western Pacific. It is the amphibious 
ready group which is currently centered around the Belleau Wood 
and is about to be replaced by the U.S.S. Essex and the Marine 
Expeditionary Unit that is based in Okinawa.
    We also rotate from the San Diego, Camp Pendleton area; 
another amphibious ready group with a Marine Expeditionary Unit 
that goes through the western Pacific. It operates there in 
places like East Timor, in places like Korea, and then often 
goes on to Central Command. So, we have both the forward-
deployed and a rotational unit like the one you visited.
    Mr. Bereuter.  Another thing that concerned me in talking 
to several people, enlisted men and officers, is the impact on 
their families of what they call the OPTEMPO. We are, at least 
in that part of the world, deployed so often on peace 
enforcement missions and for other disaster-related activities, 
for example.
    One officer, for example, had spent only 3 months with his 
family in the last 2 years, just by the cycle of how he 
happened to hit a different ship in deployment. Now, I noticed 
the Defense Department just enunciated a new policy which will 
go into effect prospectively, as I understand it. I do not know 
if it applies to active military, but I know it applied at 
least to National Guard and Reservists. The policy says that 
they will be deployed for no more than 6 months at a time.
    I assume that this is a part of the response to the concern 
about the impact on recruitment and the impact on quality of 
life of our personnel. I wonder if you could also address that 
issue, either of you.
    Adm. Blair.  Yes, sir. Let me take first crack at it; then 
if Secretary Kramer wants to add to it from the defense 
perspective. First, back to your issue on the spare parts and 
the readiness. The readiness trends within the Pacific had been 
declining over about the last 18 months. Then, in recent 
months, they have stabilized.
    They are lower overall than we would like, but they are not 
going down now. There has been money put in, in terms of recent 
increases to bring them back up. We have not seen the effect 
yet. I will give you an example of the counterpart to the 
Bataan, which was the Peleliu amphibious ready group and the 
Constellation carrier battle group deployed during the course 
of last year.
    Those units exceeded the deployed goals for the readiness 
of their systems. We measure these pretty carefully under a 
standard system. Some of that was based on the people working 
harder, like the people you have talked to when they were 
deployed, but also the spare parts were getting there in time 
for them to be able to maintain it. Back at home, which was 
also a part of what those Sailors and Marines that you were 
talking to were remembering, we are still not where we should 
be. Our readiness between deployments goes down further than we 
would like. We have to wrench it back up higher in order to 
meet the deployment we need when we send forces forward. So, we 
need to do more readiness work. The folks you talked to are 
exactly right.
    On what we call Personnel TEMPO, or PERSTEMPO, the Navy 
establishes, and I work very hard to support guidelines on 
that, which are basically that you are out for 6 months. You 
are back for 12 months. Then you also spend a certain amount of 
your time within home port. You would spend a certain amount 
over a rolling 3-year period. With about one exception, all of 
the forces in the Pacific have been able to meet that.
    That is measured on a unit basis. So, there are 
individuals, such as that officer you met, who was deployed in 
one unit, gets transferred to another one, and then he is 
deployed again. We do not capture that. Staff are also under 
more stress because they are running around doing exercises. 
The other services, the Marine Corps and the other services, 
have similar policies that they track.
    They do not meet them 100 percent of the time. But in most 
cases which they do not, there is very careful attention to 
trying to compensate for that. We all recognize that if a 
balloon goes up, a big crisis or war, we all go do what we have 
to do. I can give you one example of the kind of thing we do to 
try to alleviate that.
    In East Timor, we were providing helicopters off of Navy 
amphibious ships for the operations. We provided two rotations 
of that. First, the Belleau Wood. Second the Peleliu. When it 
came time for the third one, we did not have an available big 
deck amphibious ship or an associated Marine Expeditionary Unit 
that could meet it while maintaining the Personnel TEMPO goals 
that we had.
    So, what we did was let a contract to rent helicopters to 
provide the support that we had committed to the Australians to 
provide. We went out and spent Navy money, which would normally 
support a deployment, to do a contract to provide the 
helicopters and avoid the U.S.S. Essex and Marine helicopters 
having to make that deployment to precisely that region.
    So, we watch it closely. We try to do it. We keep it pretty 
well under control, but there are numbers of instances like the 
ones you encountered when people do work harder than our 
expectations.
    Mr. Bereuter.  These are types of questions you might have 
expected from the Armed Services Committee. I will get to 
international relations questions on China, Korea, and the 
Philippines in a few minutes. I will turn now to my colleagues; 
first, Mr. Manzullo.
    Mr. Manzullo.  Thank you very much. We appreciate you 
coming this morning. Admiral, there was an article that 
appeared in today's paper, the Washington Times. I think you 
have seen it. It mentions your name and spells it correctly.
    Adm. Blair.  That is high praise; is it not?
    Mr. Manzullo.  That is high praise. That is correct. If you 
have a name like Manzullo, it is kind of hard to spell. It 
talks about how you spoke out against the Taiwan Security 
Enhancement Act. It is pretty unusual for somebody in the 
military to take a political position. First of all, I want to 
commend you for having the courage to speak out. It is 
commendable, even though I may not agree with you. The fact 
that you spoke out is commendable. That you are exercising 
independent judgment.
    Did you read the article, Admiral?
    Adm. Blair.  Yes, sir, I did.
    Mr. Manzullo.  Obviously, you disagree with the Taiwan 
Security Enhancement Act. For the record, tell us your 
objections to it.
    Adm. Blair.  Yes, sir. I did not volunteer my opinion. I 
was asked it. What I told the Members of the Senate Armed 
Services Committee was that I applied two criteria to the 
Taiwan Security Enhancement Act. One, does it provide any 
authorities or capabilities that I do not now have to carry out 
my responsibilities under our policy? The Taiwan Relations Act 
is an important part of that, that applies to me. The answer is 
no. It does not provide additional capability or authorities.
    My second criteria was, what does it do in terms of working 
toward the right answer for Taiwan, which again is expressed in 
our policy, which is to reach a peaceful resolution, which I 
believe is the right thing for us, as well as the right thing 
for China and the right thing for Taiwan. I think the Taiwan 
Security Enhancement Act, in general, raises the degree of 
tension. It does not advance, as far as a peaceful solution.
    So, by those criteria, on balance, I do not think it is 
something that is a good idea and I do not support it. That was 
the rationale and that is the way I feel, sir.
    Mr. Manzullo.  As I examined that particular piece of 
legislation, Mr. Bereuter, I believe you were the author of a 
good portion of it.
    Mr. Bereuter.  Yes. I offered the amendments that changed 
it dramatically. I am hoping that Admiral Blair has seen the 
latest version.
    Mr. Manzullo.  As I read it, and even though I voted for 
it, I came to the same conclusion that you did. It does not 
give the United States any more authority to do things. It does 
not give us access to any more materials with which to supply 
Taiwan. So, I guess I read it the same way you did. Basically, 
it becomes a political decision that you do not think it would 
be proficient at this time to raise the level of tension for a 
bill that essentially does not do anything. That was your 
conclusion.
    Adm. Blair.  That is correct, Mr. Manzullo.
    Mr. Manzullo.  OK. I appreciate that. Thank you very much. 
That is fine. I wanted to hear from the Admiral himself. He has 
given a very clear answer on it.
    Mr. Bereuter.  I call on Mr. Pomeroy from North Dakota, our 
colleague.
    Mr. Pomeroy.  Thank you, Mr. Chairman.
    I think the Admiral's comments are extremely important and 
need to be considered on this topic and on other topics. 
Goodness knows we, in the House International Relations 
Committee, do not to make your job more difficult, heighten the 
security tensions in which your troops are performing so 
admirably without serving any other particular good purpose, 
other than maybe press releases back home. That would be 
terribly irresponsible of us.
    I think we need to reflect carefully on what you have told 
us on this matter. It does seem to be, and in looking at the 
last several year history in this region, particularly between 
PRC and Taiwan, an area where words matter very much, and where 
words can give rise to reactions that build up hostilities or 
build up the threat of hostilities significantly.
    To this end, we are struggling a little with the PRC White 
Paper that seems to expand the range of issues, the range of 
activities by Taiwan whereby military force might be considered 
against Taiwan by PRC. We are very familiar with that part of 
the argument. There was a different dimension brought out in 
the Washington Post today, an article that talks about maybe 
other aspects of the very same paper that send mixed messages 
in this message.
    The fact that President Lee's two Taiwan policy was not 
explicitly repudiated in the White Paper, and indicates that 
potentially this is a debate occurring internally within China, 
two ways of advancing their own positions, vis-a-vis Taiwan. 
There might be indeed a mixed message in the report. I would 
like you, Admiral, as well as our other witnesses to comment on 
that Washington Post analysis.
    Is there something in here reflecting maybe a divide? If 
so, what would be the best course for this Committee and 
Congress in terms of advancing a more responsible dialogue with 
China and trying to promote within China the more responsible 
view to move forward.
    Mr. Deming.  If I may, Mr. Pomeroy. Thank you very much. I 
have not read the Washington Post article, but let me just 
comment on our analysis of the White Paper, if I may. As I said 
in my testimony, we are very concerned about this new 
formulation on the use of force if Taiwan refuses cross-strait 
negotiations on reunification indefinitely that becomes a basis 
for China's use of force.
    I think it is extremely unhelpful, and we have made that 
view known very strongly to the Chinese. At the same time, as 
you noted, in reading the White Paper there are three elements 
that we find that could facilitate cross-strait talks. The 
first is that the White Paper calls for a cross-strait dialogue 
on an equal basis. We find that as a positive step.
    Second, it endorses a flexible agenda for such a dialogue, 
opening the way for discussions of technical and economic, as 
well as political, issues. Again, we think that could be a 
potentially helpful step. Third, although it very strongly 
criticizes the state-to-state formulation, it does not demand 
that Taiwan renounce this formulation as a precondition for 
talks.
    So, I think, on balance the troubling aspects of the White 
Paper are very serious and need to be taken very seriously, but 
there are these other aspects. In terms of the second part of 
your question, I want to endorse Admiral Blair's comments about 
our strong view that the Taiwan Security Enhancement Act would 
be a net detriment, not a net positive contribution, to the 
security of Taiwan, and to try to move the China-Taiwan 
dialogue forward which, after all, is fundamental to the 
security of Taiwan.
    I think our position is, if it is not broken, do not fix 
it. We think that under the existing Taiwan Relations Act, we 
can have the kind of informal relationship, including in the 
military area, that serves Taiwan interests fully, and serves 
our interests fully. So, I think it would be in the interest of 
Taiwan and of the United States not to move forward with the 
Taiwan Security Enhancement Act.
    I think also it is very important for all of us to keep 
reiterating to the Chinese, in particular, that we are 
absolutely committed to a peaceful settlement of the cross-
strait differences, and that comments and threats of 
intimidation are extremely unhelpful, and essentially 
unacceptable to us.
    Mr. Pomeroy.  Thank you.
    Mr. Kramer.  I read the article myself and I got copies of 
the statements by Qian Qichen that were mentioned in it. I 
think it is important to underscore that the White Paper is 
unhelpful. That is a kind word.
    Mr. Pomeroy.  Yes.
    Mr. Kramer.  We are opposed to threats of force, obviously 
to the use of force. The White Paper suggests, whereas before 
in effect the conditions that the Chinese talked about 
potentially using force for, were in effect changes from the 
status quo. The difference in the White Paper is that because 
it says that there is a possibility of using force if something 
is not done, then you have to have a change to the status quo 
arguably.
    Now, we do support cross-strait dialogue. We supported that 
strongly. That, I think, is what the Chinese mean themselves 
when they say there is no change. We do not agree with that. 
This is a change. Having said that, the emphasis, and I would 
not want to over-state, but the emphasis in the Qian Qichen 
statement is that he urges--and this is just a quote out of 
FBIS article, I can give this to you--he urges the Taiwan 
authorities to sit down with us, the Chinese, for dialogue and 
discussion. So, I think the emphasis there is the notion that 
this is to have talks to have a kind of peaceful resolution. We 
have obviously had a lot of other comments where the focus is 
somewhat different by Zhang Wannian, by Chi Haotian, and by the 
White Paper itself.
    Mr. Pomeroy.  On the second part of my question, the 
response that we might have that will be constructive on our 
part and perhaps assist in some way the more constructive 
elements in the PRC. Any comments on that? Maybe even a 
reflection upon the permanent normal trade relations vote that 
some are going to try and cross-link here to the White Paper?
    Mr. Kramer.  I think we have to do a variety of things. One 
is, I think, very important to talk quite straightforwardly to 
the Chinese. Admiral Blair was there after the White Paper. We 
actually had a high-level delegation there just before. We will 
have other contacts with the Chinese. The State Department has 
regular contacts with the Chinese. I think we need to emphasize 
the point about peaceful resolution.
    I think the Congress has a very important role in likewise 
emphasizing that point. With respect to how we ensure that they 
do it, I do not think that we can ensure it. I think this is 
something that has to be worked out step-by-step over time. I 
think if we are clear on what our expectations are, our 
approaches are, and we are firm in our approach, that has the 
best chance of a positive solution.
    Adm. Blair.  If I can add one thing, Mr. Pomery. What I 
noticed when I was in China recently is that there is a 
tendency among Chinese to try to determine who their friends 
are in the United States and who their enemies are in the 
United States. This tendency, I think, to divide us up into 
pro-Chinese and pro-Taiwanese Americans is something that we 
ought to fight against.
    What we are talking about is an American policy here; what 
is best for this Country. I think what is best for this Country 
is expressed in the policy that we now have; the support of 
``One-China,'' but the absolute insistence that it be achieved 
peacefully. That is a commitment, like other commitments that 
we have in Asia, and that is what American policy is in this.
    So, do not look over there and see somebody who is favoring 
one side or the other. What we are favoring is this thing that 
is in the best interest of the United States and to keep clear 
on that. Keep steady on that and not zig-zag. I think that is 
what is the best thing for this country.
    That was what I tried to tell the Chinese when I was over 
there and explained that this is not a partisan political 
issue. This is a national interest of the United States which 
we are talking about in this region here and we are going to 
continue it.
    Mr. Pomeroy.  In conclusion, Mr. Chairman, thank you for 
giving me this kind of time. Admiral, I think that says it 
precisely correct. I voted against the Taiwan Security Act, but 
that does not mean that I am pro-PRC as opposed to Taiwan on 
the question of ``One-China'' and peaceful resolution of that, 
as opposed to any military resolution.
    I think that all of us, virtually 435 in the House, each 
and every one of us stand very, very strongly on that point. If 
they are trying to look at pitting one camp against the other, 
their making fiction out of fact. We are resolved, I think, 
regardless of how strategically we advance this strongly held 
position of ours in absolute unison on the point that you just 
mentioned.
    Thank you.
    Mr. Bereuter.  We will turn now to Dr. Cooksey. The 
gentleman from Louisiana is recognized.
    Mr. Cooksey.  Thank you, Mr. Chairman. I have a statement 
that I would like to submit for the record.
    Mr. Berman. Without objection, that will be the order.
    Mr. Cooksey. Thank you.
    Admiral, my question has already been addressed to you to a 
certain extent. I still would like to distill it and come up 
with an answer. We need to make sure that these people do not 
go to war. It just so happens that these are all people that 
look alike. They are relatives. They are cousins, perhaps 
brothers and sisters that are on opposite sides of the strait.
    How can we send them a message that number one, they do not 
need to go to war, but if they do threaten to go to war, and it 
involves our national interests, we might in some way 
intercede? How can we send that message at a time when one 
group is talking about independence and another group is 
talking about bombing? How can we send them a message that this 
is the year 2000?
    An hundred years ago at the beginning of the last century, 
probably less than 5 percent of the people in the world were 
under a full democracy and had full voting rights, and that 
includes us. We were not. There were segments of our society 
who could not vote. But today, 48 percent of the 6 billion 
people are in democracies and they can vote. How can we send 
the message to these people that they need to tame the rhetoric 
and that probably we need to tame our rhetoric here until at 
least after March 18th? It would be interesting to have a 
response from each of you.
    Mr. Deming.  Thank you; if I may. First, I think that 
message is very clearly there. It should be. The language of 
the Taiwan Relations Act of 1979 says the U.S. would consider 
any effort to determine the future of Taiwan, by other than 
peaceful means, a threat to the peace and security of the 
western Pacific area, and a grave concern to the United States. 
This is not simply rhetoric.
    This has been demonstrated very clearly in our actions in 
1996, which the Admiral can address, and in our dialogue with 
the Chinese, and with Taiwan as well. The settlement must come 
through a cross-straits dialogue. Rhetoric on either side, 
particularly on the Chinese side, that threatens the use of 
force is not conducive to producing that dialogue, which is the 
solution.
    We are doing everything we can diplomatically and otherwise 
to try to get that message through to the Chinese and indeed to 
reinforce that message with Taiwan. We hope that in the wake of 
the election on March 18th, however it comes out, that there 
will be a resumption of cross-straits dialogue. That is the key 
to reducing tensions and to a long-term peaceful solution of 
this problem.
    Mr. Cooksey.  Ambassador, can I have your opinion?
    Mr. Kramer.  I agree with what Mr. Deming said. I think the 
additional point I would make, which was also made by the 
Taiwan Relations Act, is that we need to keep an appropriate 
military balance in the Strait. We have a statutory obligation 
to do so, but we would do so even if there were no statute 
because it is good policy to do so.
    We have actually acted in that way. I mentioned in my 
opening statement some of the things we have actually done from 
a deterrence point of view. So that the combination of being 
very clear as to what our national aims are, that they really 
should be seen as national aims. That there is not really 
division among the parties here. That we are clear in our 
messages. That we ensure the Taiwanese have the appropriate 
capabilities and that we maintain our own capabilities in the 
Pacific Command.
    Adm. Blair.  I think we need to watch both words and deeds, 
Mr. Cooksey. Right now, for instance, the military situation in 
that part of the world is relatively normal. There are some 
small movements. If I look at them overall, I do not see China 
and Taiwan increasing military actively. I know the United 
States is getting ready for major exercises, operations in that 
part of the world. So, as you look at the reality of the 
military situation there, it is closer to normal than it is to 
crisis conditions. So, I think it is a combination of keeping 
cool, determined, and prudent in our military actions along 
with being consistent with our rhetorical actions.
    I think talking directly with the Chinese and the Taiwanese 
about it in those terms will get us through to the only 
solution which makes sense to me in the long-term. I think it 
is in the interest of all three parties to this issue. That is 
working it out peacefully in a long-term political sequence. 
So, I think it is just keeping your head and keeping on course.
    Mr. Cooksey.  Were you suggesting that maybe some of us do 
not always keep our head with our rhetoric?
    Adm. Blair.  No, sir.
    Mr. Cooksey.  I am. I think it is true. I think it is 
interesting to hear some of the comments here from my 
colleagues. These colleagues are all very thoughtful and 
introspective and made good comments. There are some rather 
strident statements that come from the House at times. I agree 
they do not serve any purpose, particularly when it involves 
someone else's politics.
    Of course, they get involved in our politics too. Is there 
any threat to the military from a political standpoint in terms 
of them losing influence with, say, the current leadership of 
the PRC?
    Adm. Blair.  Could you phrase that again because I did not 
quite get that?
    Mr. Cooksey.  It is my understanding that the PRC, the 
military, the Chinese Communist Army, has a lot of political 
strength in the current communist government. Is there any 
threat to them losing political power from any of the rhetoric, 
or will their political power be enhanced by the rhetoric 
across the straits or from across the Pacific?
    Adm. Blair.  I think if you will look at the last year at 
the combination of circumstances, the bombing of the Chinese 
Embassy in Belgrade, followed by the mob violence against our 
embassy and consulates in China, followed by the break-off of 
military relationship at the rhetorical level, it has given 
them arguments for saying, hey, we need more resources. We need 
to have more emphasis on what we do.
    However, at the end of that discussion, and at the end of 
the consideration, I think the four modernization criteria, 
which the PRC has are still intact, which is that there are 
three modernizations relating to science and technology, 
industry and agriculture ahead of military modernization. The 
part is that the Chinese are concentrating on the development 
of their country ahead of modernizing their armed forces. They 
recently announced themselves that they have increased their 
defense budget, and they have.
    Mr. Cooksey.  About 12.8 percent.
    Adm. Blair.  I would not believe figure number one that I 
heard about the Chinese military budget. I do not think they 
understand it themselves, much less us. There is this whole 
business of them being involved in civilian enterprises, which 
some of them are divesting and some of them are not. So, I 
think you have to look at what they are actually fielding and 
what they are actually doing.
    What I see is them increasing, but not in a way that upsets 
the fundamental balance there in the region. So, I think they 
gained some in the course of the previous year of what happened 
over the course of the last year. I do not see it making a 
decisive change. I think the military balance across the 
straits, for the present, remains unchanged. But they are 
clearly building up. We have to watch it.
    Under the Taiwan Relation Act, we have to evaluate both 
what we do ourselves and the degree of support that we provide 
to Taiwan. That is a part of what we are considering right now.
    Mr. Cooksey.  Mr. Deming, my closing question; on each side 
of the strait, who is having great influence over Asia, Taiwan 
or PRC; military, political, economic? That is an easy 
question.
    Mr. Deming. I think obviously China is an enormous country 
with enormous economic, political, and military resources. 
China sees itself as a major regional and indeed global player. 
It is increasing. It is becoming more active, as the Admiral 
has said, building up its military forces. It is becoming much 
more active diplomatically.
    I think our objective is to try to ensure that, China's 
diplomatic activity, and its political and economic weight, are 
used in constructive areas. That is one of the primary reasons 
why we are supporting Chinese membership in the WTO and 
associated passage of Permanent Normal Trade Relations Act 
because we think it not only benefits the U.S. economically by 
getting us into the Chinese market, but it helps the forces of 
reform within China, particularly in the economic area.
    That indeed spills over inevitably into the political area. 
The whole focus of engagement is to try to make China as 
constructive a player as possible in the region. China will be 
a greater player politically. There is no question about that. 
The key is to try to influence it in a positive direction. That 
is our challenge.
    Mr. Cooksey.  I think that is a good closing summary. My 
contact with the Chinese people on both sides of the strait has 
been very positive. I feel that the people that I have met in 
government are very sophisticated and very enlightened, but yet 
when it comes to their political rhetoric, they are just about, 
both sides, can be just about as bad as we are here. We have 
had some examples of that in the last few weeks. The message 
should be to the Chinese people that we want them to have 
peace, and to have political stability, and economic security, 
and security in general, if they can do all of that without a 
war. I hope we are there.
    Thank you, Mr. Chairman.
    [The statement of Mr. Cooksey appears in the appendix.]
    Mr. Bereuter.  Thank you, Dr. Cooksey. I will come back to 
Mr. Davis in a few minutes, if he has questions. I am going to 
start then another round of questions. While I might comment 
later on that the Taiwan Security Enhancement Act and the 
Taiwan Relations Act, I think it is important that we not 
forget there are other countries in the region and other 
interests to pursue.
    First, my view is that the kind of military relationship we 
have with Singapore and Australia is extraordinarily beneficial 
to us at this point as well as to them. Despite some status of 
forces differences from time-to-time with the Japanese and 
Republic of Korea, that certainly is true with respect to those 
two key allies as well.
    We do not want to forget about the positive things that are 
happening in the region with respect to our security interests 
and our relationships with the allies. Admiral, I understand 
that you have just come back or at least concluded the Visiting 
Forces Agreement with the Philippines. I wonder if you could 
outline that, particularly in light of recent news reports 
which suggest that the state of the Philippine military 
establishment is in some decline and that they may not be able 
to protect themselves, as one of the commentators recently 
suggested. What have you recently concluded for the United 
States with respect to the Philippines? What do you expect will 
happen in our relationship with them?
    Adm. Blair.  I think Secretary Kramer and I both need to 
answer that because we each have a piece of it, but let me 
start from the operational side, which is my purview, which is 
that the Visiting Forces Agreement allowed us to undertake 
military exercises with the Philippines which had been limited 
because our service people did not have legal protection when 
they went into the country.
    As a result of that, we have begun a modest port visit 
program. The Seventh Fleet flagship Blue Ridge made a very 
successful visit. There have been several since then. In 
addition, we just finished exercise Ballicatan, which had 
traditionally been the major exercise between the United States 
and the Philippines. It had been suspended during the period 
that the Status of Forces Agreement lapsed before the Visiting 
Forces Agreement started.
    So, this was a good step in reestablishing basic workmen 
like relations between the armed forces of the Philippines and 
our armed forces. I think the military operational relationship 
is going to be different in the future from what it was in the 
past. Previously, it relied on big bases of the U.S. in the 
Philippines and very little military activity by the 
Philippines themselves. Now, I think a new chapter has been 
set.
    The Philippines is assuming lead agent status for the 
United Nations. Transition authority in East Timor is really 
the model. Major General de los Santos is now the military 
commander of the U.N. force there. We did some planning with 
his staff and with him to get ready for that operation.
    We provided some material, for instance, vehicles that were 
refurbished and turned over to the Philippines which they are 
using in East Timor or a part of that relationship. So, I think 
this is a new chapter in which the Philippines assumes more of 
an operational role in this relationship, not simply this base 
support relationship, which was there in the past.
    That being said, I think the armed forces of the 
Philippines need to continue to concentrate on their own 
capabilities. The maintenance, the personnel support, and the 
other aspects of being able to operate are less than they 
should be. We worked with the Philippines on doing that.
    They have the lion share of that responsibility, which is 
to make sure that the forces that they have can operate and can 
participate with us in much more of an equal fashion than was 
true in the past. That being said, we need to work out the 
relationship in terms of sales and in terms of making 
assistance available to them. I think Secretary Kramer has been 
really more in the middle of that than I have.
    Mr. Kramer.  Thank you very much. In addition to what the 
Admiral has said, we have had a series of high-level visits. 
The Secretary has visited the Philippines. The Minister of 
Defense of the Philippines has visited us. I was just there in 
the Philippines and met with Mr. Mercado and also with their 
Chief of Defense, General Reyes.
    One of the things that we are doing to assist the 
Philippines is doing what we call a defense expert exchange to 
help assess the state of their forces and talk with them about 
the areas in which we think they need to emphasize in order to 
modernize in what is for them necessarily a resource-
constrained environment.
    Perfectly sensibly, their national priority is economic 
development, yet they still want to do some modernization. We 
are trying to help them evaluate where you can put funds in the 
most cost-effective way and the highest leveraging. When I was 
out there a few weeks ago, Mr. Mercado accepted to have the 
team come. We are actually in the process of doing that now.
    We also, as the Admiral said, provide EDA defense articles 
from time-to-time. We provided a cutter. I actually was a part 
of the turnover ceremony for some of the trucks that the 
Admiral mentioned. We gave 145 EDA trucks. I think we have an 
approximate similar number that are actually physically in 
Timor for them to use. We need to continue to do training with 
them.
    If I can put a pitch in to add to what the Admiral said in 
his opening testimony, there is nothing that we do, period, 
from a military point of view that is more valuable 
internationally than the IMET and the FMS training that we do. 
If this Committee could do one single thing to enhance that 
IMET capability and to provide that ability to work with these 
countries through the use of funding, it would be terrifically 
valuable.
    Mr. Bereuter.  Thank you. As you may know, in the last 
several years, the International Relations Committee has 
authorized all requested funds. Your problems and my problems 
exist in certain elements of the Appropriations Committee in 
the two Houses. Those elements are on both sides of the aisle.
    Do you want to have another question, Mr. Pomeroy? I know 
you have to leave so I will recognize you.
    Mr. Pomeroy.  Thank you, Mr. Chairman. I do have one other 
question on the topic of North Korea and I do have to leave. I 
appreciate it. Thank you for your forbearance.
    I would ask the Admiral if, from a security standpoint, as 
we look at the unpredictable North Korea whether you are 
comfortable with the approach advanced in the Perry report 
which basically talks about maintaining a strong effect and 
then seeking improvements in a variety of strategies? I think 
some within Congress believe that the portion of activity that 
might be in the range of seeking improvements sends a message 
to North Korea that maybe we are not as alarmed--bad conduct 
somehow in North Korea. Are you comfortable with, for example, 
humanitarian assistance to address the starvation in North 
Korea at a time that we maintain this very vigilant defense 
posture relative to this unpredictable nation?
    Adm. Blair.  My main concern is the second half of the 
equation, Mr. Pomeroy, which is making sure that we maintain 
strong deterrence and making sure that North Korea knows that 
if they start a war with the United States and the Republic of 
Korea, it will be the end of the regime.
    Mr. Pomeroy.  Absolutely.
    Adm. Blair.  I have the confidence that that is true now. I 
think that is the basis of whatever we had to do. Then as long 
as we have that, the question is how do we make that happen in 
the best possible way. It is hard to make a military judgment 
on passing food. I had talked to the people who supervised that 
food distribution.
    I think they have a fairly decent system of checking that 
it gets to civilians who need food. I am convinced that 
happens. You can say that then frees food to be able to have 
well-fed soldiers. It is the well-fed soldiers that threaten 
the United States. That is legitimate as well. Speaking 
personally, I think the American tradition of helping those in 
need, whether they work for a country that is oppressing them 
or not is the right thing to do. I do not think it 
significantly affects the military balance. I am for feeding 
people who are in need.
    Mr. Pomeroy.  Thank you, Admiral.
    Mr. Bereuter.  I will resume questioning. I should have 
mentioned a long-term positive relationship we have with the 
Thai military. I assume that is in place today as well. 
Speaking of that part of Asia, the ASEAN organization is an 
interesting experiment. Generally, we are quite supportive of 
it on a bipartisan basis
    It is an association of diverse countries, including a 
rogue regime in one case, and recently expanded to include 
Vietnam, but it seems to me that Asian offers a real 
opportunity for us to pursue a variety of subjects since we are 
participants. Mr. Deming, you can confirm my understanding that 
the U.S. participates. China participates. Russia participates. 
I assume Australia and New Zealand do as well.
    Mr. Deming.  Everybody, but North Korea.
    Mr. Bereuter.  Speaking of North Korea, this is where I am 
leading. Is this not an opportunity for us to more aggressively 
help all of the countries in the region to understand the 
proliferation difficulties that North Korea provides? Are we 
doing everything we can to convince China that the North Korean 
missile development program is in fact leading to a greater 
interest in theater missile defense which they regard as a 
negative happening in the region involving Japan and 
potentially Taiwan?
    Mr. Deming.  Mr. Chairman, I believe the Chinese have 
reached that conclusion quite clearly.
    Mr. Bereuter.  Secretary Albright has made that view 
forcefully known to them, I know.
    Mr. Deming.  Yes.
    Mr. Bereuter.  I would imagine that Secretary Cohen has as 
well.
    Mr. Deming.  Yes. I think the Chinese on their own 
understand the obvious consequences of the August 1998 launch 
of the Taepodong-2 Missile over Japan on their interest. The 
Chinese are quite quiet and subtle about exactly what they do, 
in terms of their relations with North Korea. I think we have 
reason to believe that they have played a constructive role.
    They certainly played a constructive role in the four-party 
talks. I think that that is one area where we and the Chinese 
do share a fundamental security interest. We do not want to see 
a conflict on the Korean peninsula. We would like to see North 
Korea evolve toward a more peaceful society. The Chinese, of 
course, have their own interest as well. They have a long 
historical relationship with North Korea.
    They treat it very delicately. But on balance, the Chinese 
have been a positive force in that direction. We continue to 
encourage them to play that role. More broadly on the ASEAN 
Regional Forum, or ARF, as I mentioned, the only country in the 
region that is not a part of the ARF right now is North Korea. 
We would very much like to see North Korea get into that 
environment.
    We think it would be very educational and constructive to 
get them into the original framework. We have in ARF and in our 
bilateral contacts certainly emphasized our concerns about the 
North Korean Nuclear and Missile Program. I think that has 
gotten some resonance. Although frankly, we are disappointed 
that we have not gotten more financial support for KEDO from 
our Asian colleagues, except for Australia.
    I think they do appreciate the security concern. They do 
attach a lot of value to the efforts that we are making to try 
to implement the Perry process. I know how difficult that is, 
given the history of that regime.
    Mr. Bereuter.  I would like to move to a question related 
to General Musharraf's military government which we now find in 
Pakistan. I would welcome responses from anybody. Perhaps, 
Secretary Kramer, you could give us the views of the 
Administration now on what if anything we should be doing in 
military contact with respect to Pakistan.
    Admiral Blair, what orders do you have? What involvement do 
you have at this point? Are you directed to have, or are you 
encouraged to have with respect to the government of Pakistan? 
I asked this on the eve of President Clinton's visit to 
Pakistan, which was a bit of a surprise to most of us, in light 
of what had been said earlier.
    Mr. Kramer.  The Admiral is free to answer. General Zinni 
is the CINC that has that.
    Mr. Bereuter.  You are right in correcting me on that.
    Mr. Kramer.  He has his thoughts. As you said, the 
President is going to go there. Right at the moment, we do not 
have any kind of normal military engagement. Among many other 
reasons, there are statutory limitations. Of course, there was 
the coup itself, which even if there were not statutory 
limitations would have had an impact on the policy.
    What we have said and what I am confident the President 
will say in substance, but we have previously done so, is we 
have focused first and foremost on the necessity of restoring a 
democratically-elected government. Second, which was true even 
before the coup was the need for progress on the non-
proliferation goals. That is true for Pakistan. That is true 
for India, of course.
    Third, we have issues with respect to cooperation on 
Afghanistan. We seek to have both the Pakistanis and the 
Indians improve their bilateral relations. Then Pakistan, 
although this is really out of my area, but it has an impact 
ultimately. It really needs to undertake a substantial economic 
reform. So, those are the broad categories of our overall 
policy.
    From a military-to-military point of view in the sense of 
an engagement program that we have been talking about here, we 
really are not ready to do that until there is progress on 
these goals. Obviously the President will be talking about this 
when he is in Pakistan.
    Mr. Bereuter.  Mr. Deming, do you know the Administration's 
point of view with respect to IMET and Pakistan?
    Mr. Deming.  Mr. Chairman, the jurisdiction of my bureau 
stops at the border of Burma. I think that if I started to get 
into trying to make policy about India and Pakistan----
    Mr. Bereuter.  I am just asking if you know what it is?
    Mr. Deming.  I would be in real trouble. I am sorry. I had 
better refrain from speculating.
    Mr. Bereuter.  All right. I do want to comment on my 
experience with the Chinese military, which is not tremendous. 
Rhetorically, these are the most belligerent people I run into 
when I go to China. Perhaps it is because the State Department 
intentionally focuses me on the most belligerent elements in 
the Chinese military. I am not sure.
    If anything, the deliverance it has gotten worse. We 
typically go through an anti-Taiwan tirade at the beginning of 
the discussions. I am wondering to what extent do you think 
their influence is increasing with respect to the leadership in 
China itself? I will try you, Mr. Deming.
    Mr. Deming.  I am not an expert on the PLA or Chinese 
politics. I think that certainly the Chinese military has 
traditionally played an important role in policy there. It 
continues to play an important role. I think it is very 
difficult for us to determine with precision exactly where the 
various influences are and what the balance is at the moment.
    It was instructive to me that if you looked at the 
statements coming out of the National People's Congress this 
week, over the weekend, that there was a nuanced difference 
between the statements by the President, and by the Prime 
Minister, and by the Vice Chairman of the Military Commission 
with the Vice Chairman being much stronger and more 
confrontational.
    I am not sure whether that reflects real policy differences 
or whether it is simply that they are playing out different 
roles. There is no question that the influence of the PLA is 
substantial in Chinese policy.
    Mr. Bereuter.  The Admiral may have something to add to 
that.
    Adm. Blair.  I had the same experience you had, Mr. 
Chairman, in the range of people I meet there. Those who are 
wearing uniforms are the most belligerent, the most hard-lined, 
and the most aggressive. I think that when you read their 
papers, the military newspapers are generally harder-lined and 
more opposed to the United States than are the government 
papers.
    When I was there, I went, for example, to the National 
Defense University and talked to the President. I said, I read 
all of these open press articles that come out of some of your 
faculty on how to sink nuclear aircraft carriers, how to fight 
unlimited wars with superpowers. What are you guys talking 
about? Is this what you are really working on and planning to 
do?
    Of both the President of NDU and the other leaders, the 
Chinese military leaders, I asked the same questions. They 
said, oh, those are personal views. They are not official 
views. The general tone of the Chinese military official press 
and their conversations that I have had with them are much 
harder-edged, more belligerent and more aggressive than is the 
general line.
    So, it is hard to conclude that they are playing a helpful 
role toward seeking the peaceful resolution that we favor. So, 
I think your impression is correct. I think we ought to keep 
working the problem, but without a lot of illusions in terms of 
who we are dealing with.
    Mr. Bereuter.  Admiral, are the Chinese able to come to the 
Asia-Pacific Center for Security Studies? That is an 
institution that I think very highly of in its formative stage. 
Are they invited? Are you able to invite them?
    Adm. Blair.  We are able to invite them at their expense 
and they have chosen not to pay their way. I believe that we 
should, in time, pay their way. As I say, I believe it is in 
our interest to do so. But we are not to that point yet.
    Mr. Bereuter.  Thank you. I did notice your comments in the 
appendix of your statement related to your desire to have the 
passage of legislation with respect to the Center. My 
understanding is to some extent, DoD has been pulling back at 
the request of certain legislators, saying you need to deal 
with the schools in a more comprehensive fashion.
    I am not sure if that is right, but I happen to be 
supportive of what you have requested. We only got part of what 
you requested in the past. Mr. Kramer, did I see you wanted to 
speak?
    Mr. Kramer.  Yes, on that point. I have four Centers, so to 
speak. We have one, as you well-know, the Marshall Center for 
Europe, the Asia-Pacific Center, the Center for Hemispheric 
Studies for Latin America, the Africa Center, and we are in the 
process of creating a fifth in the Near East/South Asia Studies 
which has money in the POM.
    It has been approved by the Secretary. So, number one, I 
think we, DoD, and it is true of all of the CINC's, as well as 
the Secretary, myself, and everyone else thinks that these are 
terrific institutions. We are not pulling back in any way in 
that regard. Secondly, we do need to watch the money, like we 
have to watch it for everything else. These were started up, in 
a certain sense, in an entrepreneurial way. What we are trying 
to do is to regularize the budgetary process, and look at it in 
the overall.
    We have created some mechanisms to do that so that we 
really can get them into our so-called POM process, the budget 
process in the right way. As far as I am aware, and I think it 
is indicative by the fact that in the last year, we have had 
the first meetings of the Africa Center. We have the approval 
to start the Near East/South Asia Center.
    The DoD is strongly behind these, including the Asia-
Pacific Center, which I think everyone agrees is a very 
effective institution. You may have some particular points on 
that, Admiral.
    Mr. Bereuter.  Do you expect to offer legislation in any 
fashion related to the schools?
    Mr. Kramer.  We do not need the legislation right now to do 
the schools. We are obviously doing that. I have personally 
asked to have all of the directors, and for that matter, the 
CINC's to have legislation to overcome some of the particular 
problems. For example, there are some issues as to where we can 
accept money to support the schools. Can we have outside 
foundations and those kinds of things give us money? Again, 
what is the governmental organization? There are some 
particular things that could be, I think, improved. One of the 
Centers has that problem.
    It is the Asia-Pacific Center. Whereas the Marshall Center 
had some Marshall Center specific legislation that allows them 
to do it. So, we do want to regularize some of the stuff. It is 
a long way to say, yes.
    Mr. Bereuter.  Thank you. Admiral Blair, do you want to add 
onto that?
    Adm. Blair.  Yes, sir. We do seek the same authority that 
the Marshal Center has, which is the authority to waive the 
fees in order to bring someone to the Center at our expense 
when we consider that to be in our interest. Second, to be able 
to accept not only foreign, but also domestic contributions to 
foundations which support these Centers to be able to defray 
student costs.
    We have received partial authority to do that in the 
Appropriations Bill last year. But we would like the 
Authorization Bill to establish that authority which the 
Marshal Center has on a full-time basis so that we can reach 
the objectives of the Center.
    Mr. Bereuter.  Thank you.
    Mr. Kramer.  I would just say, just because I did not 
mention the waiver point, there is no difference. We all agree 
with that. We would like to have that for all of the Centers, 
including the Asian-Pacific Center.
    Mr. Bereuter.  I am interested in helping you on that. We 
are going to have a series of votes. I am going to turn to Dr. 
Cooksey for a last question. Then I might have time for a 
concluding statement on Taiwan. Dr. Cooksey.
    Mr. Cooksey.  Thank you, Mr. Chairman. An economics 
question; I will give you the question and make a couple of 
other comments. The economic slow-down in Asia started a few 
years ago, 2 or 3 years ago. I think it really began in Taiwan. 
I am sorry, in Thailand. I have a feeling that they are coming 
out of it.
    What is going to be the first nation to come out of it and 
be back to full steam? What are the major players? Which ones 
are going to be the last ones to come out? Which ones are going 
to be the laggards? I would ask you, are any of you economists? 
You have impressive resumes. Are any of you economists?
    Mr. Kramer.  A long time ago, I graduated with a degree in 
economics.
    Mr. Cooksey.  I have two young guys on my staff that are 
Stanford economics graduates. I told them today that I had 
learned that an economist is someone that likes to play with 
numbers but does not have enough personality to be a CPA; so, 
with that preface.
    Mr. Kramer.  My children would agree with you. I think that 
is probably a good thing for Mr. Deming to talk to. I can add 
my impressive economics resume to whatever he says.
    Mr. Cooksey.  These are bright young guys and I depend on 
them heavily. They are a lot better prepared than I am.
    Mr. Deming.  I took Samuelson 101 and 102. I think I will 
get in real trouble with Larry Summers for speculating about 
the future of the Asian economy, but let me do it anyway. I 
think we really have been impressed in the last few months with 
the speed with which the Asian economies are coming out of the 
financial crisis.
    Thailand is moving perhaps most rapidly. The ROK is moving 
quite rapidly. In even Indonesia, there is positive growth. 
This, in a way, is very good news. It has a very positive 
psychological effect. There are still a lot of problems to be 
overcome. Unemployment is still higher than it was in most 
countries when the financial crisis began.
    There are a lot of structural problems that need to be 
undertaken. Indeed some people in Asia argue that the recovery 
has been too fast because it has taken away the crisis kind of 
attitude that they needed to have to make the hard reforms. 
Now, there is a sense of relief that they do not really have to 
do all of these hard things, which they really do need to do to 
get their economies back in order.
    I would think that probably the ROK and Thailand are 
leading the pack. Indonesia, of course, has a lot of other 
fundamental problems, along with in political difficulties. So, 
that is the country we probably worry about most.
    Mr. Cooksey.  Indonesia?
    Mr. Deming.  Indonesia; the interconnection of uncertain 
political issues and uncertain economics. Still, the Chinese 
that fled during the disturbances 1\1/2\ to 2 years ago have 
not come back in large numbers. There is still uncertainty. So, 
investment from outside is not being attracted in any great 
numbers. Reform is not proceeding as rapidly as it should. So, 
that is a snapshot of, I think, where things stand.
    Mr. Cooksey.  Do you think the Asians in this part of the 
world will ever be able to make the structural changes that 
even Europe seems laggard in achieving?
    Mr. Deming.  My own view is they are going to have to. I 
think globalization is a fact of life. There is resistance to 
it. There is frustration about it. In Japan, we have seen the 
urge for or the push for reform has slowed down. For these 
countries to compete in the new global market, they are going 
to have to reform. It is a painful process. It will take a long 
time. There will be a lot of social dislocations that go with 
it, and a certain amount of backlash. But I think the long-
range outcome is inevitable.
    Mr. Cooksey.  Good. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Bereuter.  Thank you, Dr. Cooksey.
    We had some earlier discussion about the Taiwan Security 
Enhancement Act. I do hope the people who are critics of the 
act, from many directions, will look at the act as passed by 
the House, which is far different than the one introduced in 
the Senate and which was then reintroduced in the House. It is 
far different.
    Having said that, I would have preferred that it not pass 
in this period of time. You can only stand in front of 
converging freight trains so long. You do your best to make it 
a responsible piece of legislation.
    I recall that the Taiwan Relations Act was passed a couple 
of months after I arrived here in 1979. It was passed over the 
objection of President Carter and the Administration because of 
Congress' concerns about what had happened at that time. I know 
that any Executive Branch of either party would probably have 
opposed it, just as they opposed the Taiwan Security 
Enhancement Act. I do think that a variety of people in this 
country, including some of my colleagues, need to have an 
adversary. We have some Cold War warriors that probably 
complicate our situation.
    On the other hand, I do think that some things that 
President Clinton said in his visit to China and his 
perceptions of what he might have felt and intended have 
complicated the matter. Those comments have also given strength 
to concerns that the U.S. needs to take a less ambiguous role 
with respect to the defense of Taiwan, if in fact Taiwan is 
threatened with invasion.
    I thought that Speaker Gingrich, when he visited China on a 
trip in which I accompanied him, had it right when he said to 
President Jiang Zemmin, ``You understand and I have a House 
resolution backing it up, that we will defend China, if you 
attack it.'' Instead of getting the usual anti-Taiwan tirade, 
President Jiang Zemmin simply said, ``We do not intend to 
attack.''
    During that meeting, we went on to a productive discussion 
on a variety of other issues. Then the delegation went to 
Taiwan. The same message was given to President Lee that they 
as well should not be provocative in what they did on that side 
of the strait. This was conveyed directly from the Speaker, 
reinforced by several Members, including myself.
    I do think this Administration (and it is true of the 
previous ones), however, has forgotten that parts of the Taiwan 
Relations Act require consultation with the Congress on defense 
issues, including weapons systems. That consultation has not 
taken place to my knowledge. People in positions that should 
know if it is taking place, in addition to myself, most 
directly people on the Armed Services Committee and in certain 
Appropriations and Intelligence Committees, also say it has not 
taken place.
    That is not strictly a Republican complaint. That is a 
bipartisan complaint. The Executive Branch, and not just this 
Administration, has to ask if it is doing what we it is 
required to do under the Taiwan Relations Act, knowing full 
well that things are accentuated and exaggerated here as ethnic 
politics plays its role in this Congress.
    There is no place like this country in that anything that 
happens anywhere on the globe has ramifications in this 
country. We have people who have come from those far corners of 
every part of the globe. They have their abuse, their remaining 
loyalties, and they try to affect the political process. 
Sometimes we forget about what our national interest really is.
    So, if I ever have a chance to Chair the International 
Relations Committee, I promise to put a banner in the back of 
the main hearing room with just one question that faces people 
every day. That is, ``What is our national interest?'' I think 
we are at the time where I need to go to vote. I want to thank 
you gentlemen for taking time out of your very busy days to 
come to Congress and spend some time presenting your views and 
answering questions for those Members of the Subcommittee who 
could be here.
    It is an unconventional time to have a hearing for a 
variety of reasons. However, I thought it was important that we 
have a chance to hear from Admiral Blair when he is in town. 
Gentlemen, thank you very much again for your testimony today 
and for your responses.
    This Subcommittee is adjourned.
    [Whereupon, at 2:15 p.m., the Subcommittee was adjourned.]

      
=======================================================================




                            A P P E N D I X

                             March 12, 2000

=======================================================================


      
    [GRAPHIC] [TIFF OMITTED] T4748.001
    
    [GRAPHIC] [TIFF OMITTED] T4748.002
    
    [GRAPHIC] [TIFF OMITTED] T4748.003
    
    [GRAPHIC] [TIFF OMITTED] T4748.014
    
    [GRAPHIC] [TIFF OMITTED] T4748.015
    
    [GRAPHIC] [TIFF OMITTED] T4748.016
    
    [GRAPHIC] [TIFF OMITTED] T4748.017
    
    [GRAPHIC] [TIFF OMITTED] T4748.018
    
    [GRAPHIC] [TIFF OMITTED] T4748.019
    
    [GRAPHIC] [TIFF OMITTED] T4748.020
    
    [GRAPHIC] [TIFF OMITTED] T4748.021
    
    [GRAPHIC] [TIFF OMITTED] T4748.022
    
    [GRAPHIC] [TIFF OMITTED] T4748.023
    
    [GRAPHIC] [TIFF OMITTED] T4748.024
    
    [GRAPHIC] [TIFF OMITTED] T4748.025
    
    [GRAPHIC] [TIFF OMITTED] T4748.026
    
    [GRAPHIC] [TIFF OMITTED] T4748.027
    
    [GRAPHIC] [TIFF OMITTED] T4748.028
    
    [GRAPHIC] [TIFF OMITTED] T4748.029
    
    [GRAPHIC] [TIFF OMITTED] T4748.030
    
    [GRAPHIC] [TIFF OMITTED] T4748.031
    
    [GRAPHIC] [TIFF OMITTED] T4748.032
    
    [GRAPHIC] [TIFF OMITTED] T4748.033
    
    [GRAPHIC] [TIFF OMITTED] T4748.034
    
    [GRAPHIC] [TIFF OMITTED] T4748.035
    
    [GRAPHIC] [TIFF OMITTED] T4748.036
    
    [GRAPHIC] [TIFF OMITTED] T4748.037
    
    [GRAPHIC] [TIFF OMITTED] T4748.038
    
    [GRAPHIC] [TIFF OMITTED] T4748.039
    
    [GRAPHIC] [TIFF OMITTED] T4748.040
    
    [GRAPHIC] [TIFF OMITTED] T4748.041
    
    [GRAPHIC] [TIFF OMITTED] T4748.042
    
    [GRAPHIC] [TIFF OMITTED] T4748.004
    
    [GRAPHIC] [TIFF OMITTED] T4748.005
    
    [GRAPHIC] [TIFF OMITTED] T4748.006
    
    [GRAPHIC] [TIFF OMITTED] T4748.007
    
    [GRAPHIC] [TIFF OMITTED] T4748.008
    
    [GRAPHIC] [TIFF OMITTED] T4748.009
    
    [GRAPHIC] [TIFF OMITTED] T4748.010
    
    [GRAPHIC] [TIFF OMITTED] T4748.011
    
    [GRAPHIC] [TIFF OMITTED] T4748.012
    
    [GRAPHIC] [TIFF OMITTED] T4748.013
    
    [GRAPHIC] [TIFF OMITTED] T4748.043
    
    [GRAPHIC] [TIFF OMITTED] T4748.044
    
    [GRAPHIC] [TIFF OMITTED] T4748.045
    

</pre></body></html>
